No. 20-

In the Supreme Court of the United States

THE STATE BAR OF CALIFORNIA, ET AL., Petitioners,
v.
LENORE ALBERT, Respondent.

PROOF OF SERVICE
I, Joan Randolph, hereby certify that on October 15, 2020, three copies of the
Petition for Writ of Certiorari and Appendix in the above-entitled case were mailed,
first class postage prepaid to:
Lenore Albert
14272 Hoover Street #69
Westminster CA 92683
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 15, 2020, San Francisco, California.

/s/ Joan Randolph
Joan Randolph, Legal Secretary
THE STATE BAR OF CALIFORNIA
180 Howard Street
San Francisco CA 94105

